r
i
t

!

r?

(

n

i
4 *—1

V^*J i— ._j

L-,

IN THE
SUPREME COURT OF THE UNITED STATES

Supreme Court, U.S.
FILED

OUT 0 5 2020
OFFICE OF THE CLERK

David Olson

— PETITIONER

vs.
Stephanie Olson

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

Supreme Court of the State of New York, Appellate Division, First Department

PETITION FOR WRIT OF CERTIORARI

David Olson
(Your Name)
4322 SW Roxbury St
(Address)
Seattle, WA 98136
(City, State, Zip Code)
(917) 865-3689
(Phone Number)

^

Ouestion(s) Presented:
In Singer v. Singer, 180 A.D.2d 725, 726 (2d Dept 1992), the New York
Appellate Division, Second Department found that the Trial Court “erred in
including in the [money] judgement, those arrears that accumulated after the
husband cross-moved for a downward modification [of child support].”
Additionally, in Boritzer v. Boritzer, 137 A.D.2d 478 (2d Dept 1988), the Second
Department found that the issues of downward modification [of child support],
and contempt, are “inextricably linked” and should be determined together.

The question presented here is:
Did the New York Appellate Division, First Department err in upholding the Trial
Court for adjudging Petitioner in civil contempt and ordering incarceration, for
[child support] arrears that accumulated AFTER he filed a motion for downward
modification, and while that motion had still not been heard?

This question has divided the First and Second Departments, and has resulted in
conflicting rulings, which in one case led to incarceration, and in the other case
would not have.

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
^All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

David Olson, pro se, Petitioner
4322 SW Roxbury St.
Seattle, WA 98136
(917) 865-3689
Stephanie Olson, pro se,
108 Tenth St.
Garden City, NY 11530
(917) 912-2589

Respondent

RELATED CASES

None

TABLE OF CONTENTS

1

OPINIONS BELOW.

2-5

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT

6
7-13
13-14
15

CONCLUSION

INDEX TO APPENDICES

APPENDIX A

Decision of Supreme Court of New York, Appellate Division, First
Department

APPENDIX B

Decision of Supreme Court of New York (Trial Court)

APPENDIX C

Decision of New York Court of Appeals denying review

APPENDIX D

Decision of Supreme Court of New York, Appellate Division, First
Department denying rehearing

APPENDIX E

Additional Statutory Provisions

APPENDIX AA Additional Supporting Exhibits

TABLE OF AUTHORITIES
Page
Cases
Boritzer v. Boritzer, 137 A.D.2d 478 (2d Dep’t 1988)
Chase Watch Corp. v. Heins, 283 N.Y. 564, 27 N.E. 2d 282
Colley v. Colley, 200 A.D.2d 839, 839

QP,9,11,13,14
3,4

13
2,3,4

Gotthilfv. Sills, 375 U.S. 79 (1963)
Singer v. Singer, 180 A.D.2d 725, 726 (2d Dep’t 1992)

QP,12,13

Statutes
New York CPLR § 5514(a)

6,8

New York CPLR § 5602(b)

6,8

New York Domestic Relations Law § 244

6

New York Domestic Relations Law § 246

6,9,14

New York Judiciary Law § 753
U. S. Const, amend. XIX, Section 1

6
5,6

IN THE
SUPREME COURT OF THE UNITED
STATES PETITION FOR WRIT OF
CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the
judgment below.

OPINIONS BELOW
For cases from state courts:
The opinion of the highest state court to review the merits,
the Supreme Court of New York, Appellate Division, First
Department, appears at Appendix A to the petition and is
[ ] reported at________________________________________

or,

^is attached
The opinion of the Supreme Court of New York (Trial Court)
appears at Appendix B to the petition and is
[ ] reported at__________________________________________ .> or,
[Vj'is attached
The decision of the New York Court of Appeals appears at
Appendix C to the petition and is
[ ] reported at_______________________________________

.> or,

b<3 is attached
The opinion of the Supreme Court of New York, Appellate
Division, First Department, appears at Appendix D to the
petition and is
[ ] reported at______________________________________
^fis attached

l

or,

JURISDICTION

^For cases from state courts:
The date on which the highest state court, the New York Court of
Appeals, decided my case was May 7, 2020. A copy of that decision
appears at Appendix C.
May 7, 2020 + 150 days (per Supreme Court letter dated April 17,
2020) = October 4, 2020, which is a Sunday; the next business day is
October 5, 2020. This petition will be mailed on or before that day.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

DISCUSSION ON JURISDICTION:
The New York Court of Appeals dismissed the motion on grounds that the
order sought to be appealed from did not finally determine the action. However, in
Gotthilfv. Sills, 375 U.S. 79 (1963), the Supreme Court granted certiorari to
review a judgment of the Supreme Court of New York, Appellate Division, First
Department, which the Court of Appeals of New York held could not be appealed
to as of right because it did not finally determine the action. I call the Court’s
attention to several points in supporting a jurisdiction decision:
1) The writ of certiorari in Gotthilfv. Sills was subsequently dismissed, as the
Court determined that the petitioner at no time appealed to the Appellate
Division for permission to appeal to the Court of Appeals per New York
CPLR § 5602(b). My case differs, however, since after the Court of Appeals
denied to review my case, I did move the Appellate Division for leave to

Jurisdiction (cont)

appeal to the Court of Appeals per CPLR 5514(a) in a timely manner. But,
the Appellate Division returned my submission and claimed I had exhausted
my avenues for appeal.
2) Justice Black, Justice Douglas, and The Chief Justice concurred, in the
dissenting opinion on Gotthilfv. Sills, and made two distinct points:
a) At the time, there was one New York case that involved body execution
and the question of how to obtain review in the Court of Appeals - Chase
Watch Corp. v. Heins, 283 N.Y. 564, 27 N.E. 2d 282. The petitioner in this
case took an appeal from an order of the Appellate Division, but the Court of
Appeals dismissed it on the grounds that it was a nonfinal order - however,
the Court of Appeals gave the petitioner 20 days to go back to the Appellate
Division to seek permission to take the appeal, which was done, and the
petitioner ultimately prevailed. In my case, New York CPLR 5514(a)
indicates that if a motion for permission to appeal is denied, and another
method of seeking permission to appeal is available, then the time allowed
for such other method shall be computed from the dismissal date. On this
point alone, I should have subsequently been allowed to move the Appellate
Division for leave to appeal to the Court of Appeals, but I was denied.
b) The bigger point made in the dissent was that in Chase Watch, the
appealed order determined nothing finally; the petitioner was merely

3

Jurisdiction (cont)

frustrated momentarily in his collection efforts. In Gotthilfv. Sills (and in
my case), on the other hand, the petitioner faced incarceration; if he lacks
money to pay the judgment, nothing further is available to him by New York
law. The petitioner then, might reasonably have concluded that a final order
had been entered and that Chase Watch did not control, and therefore
docketing an appeal directly with the Court of Appeals was justifiable as a
matter of federal law. From the Gotthilfv. Sills dissenting opinion:
“The decision of the Court of Appeals in this case establishes, of
course, as a matter of state law that the order was not final. While that
determination is binding on us, it does not preclude us from holding that the
decision was sufficiently unexpected so as not to bar, in the interests of
justice, the certiorari route here. See NAACP v. Alabama, 357 U.S. 449,
457-458:
‘Novelty in procedural requirements cannot be permitted to
thwart review in this Court applied for by those who, in
justified reliance upon prior decisions, seek vindication in state
courts of their federal constitutional rights.’
“While 28 U.S.C. 1257 requires that judgements brought here for
review be “final”, we have recognized an exception ... where the
controversy has proceeded to a point where the “losing party [will]... be
irreparably injured if review [is]... unavailing.”

4

My argument for this Court to have jurisdiction is that I have already been
incarcerated as a result of this case, and given that all the same conditions of
the case are still in place, I stand to be incarcerated again unless and until
this court decision can be reviewed. Given the conflicting rulings between
the New York Appellate Division First and Second Departments, and the
fact that I have been incarcerated, and likely will be again in one
Department, whereas I wouldn’t be in the other Department for the same set
of circumstances - there should be a review of the case as to whether my
federal constitutional rights have been violated under the Procedural Due
Process clause of the 14th Amendment.

r

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

U. S. Const, amend. XIX, Section 1:
“All persons born or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and of the state
wherein they reside. No state shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the United States; nor
shall any state deprive any person of life, liberty, or property, without due
process of law; nor deny to any person within its jurisdiction the equal
protection of the laws."

New York §CPLR 5514 - Extension of time to take appeal or to move for
permission to appeal:
(a) Alternate method of appeal. If an appeal is taken or a motion for
permission to appeal is made and such appeal is dismissed or motion is
denied and, except for time limitations in section 5513, some other method
of taking an appeal or of seeking permission to appeal is available, the time
limited for such other method shall be computed from the dismissal or denial
unless the court to which the appeal is sought to be taken orders otherwise.

CPLR §5602(b)

Appendix E p.1-3

DRL §244

Appendix E p.4-5

DRL §246

Appendix E p.6-8

NY Jud law §753

Appendix E p.9-10

(o

Statement of the Case
Background
In the divorce case of Petitioner and Respondent, pendente lite child
support was ordered by the Trial Court on 10/25/2016 of $3,625 per month
(Appendix AA pA27). On 2/6/2017, based on a change in financial
circumstances, Petitioner filed a motion (motion sequence #13) for downward
modification (Appendix AA pA37-38). At the time of filing the downward
modification, Petitioner was current on child support payments. Subsequent to
the filing of the downward modification, Petitioner fell behind in child support
payments due to his inability to find employment commensurate with the ordered
support payments. Although the downward modification motion was filed in
February 2017, by October 2018 that downward modification motion had still not
been heard. Respondent filed a motion for contempt due to the arrears, and the
Trial Court held a contempt hearing on 10/23/2018, finding against Petitioner and
sentencing him to incarceration for 60 days (Appendix B). Petitioner served 60
days in jail, and then appealed the Trial Court’s contempt ruling to the Appellate
Division, First Department. The Appellate Division heard the appeal, and issued
a decision on November 26, 2019, affirming the lower court (Appendix A).

7

Per New York CPLR 5602(a), Petitioner moved the New York Court of
Appeals directly for leave to appeal to the Court of Appeals. On May 7th, 2020,
the Court of Appeals dismissed the motion upon grounds that the order sought to
be appealed from did not finally determine the action (Appendix C).
Petitioner then went back to the Appellate Division to seek permission to
take the appeal to the Court of Appeals per New York CPLR 5514(a). On June
9th, 2020 the Appellate Division denied review of the motion claiming that
Petitioner had exhausted all avenues of appeal in this matter (Appendix D).
Petitioner is now filing a petition for writ of certiorari with this Court to review
the Appellate Division’s ruling.
Appellate Division conflict
The question this Court is being asked to review, which has generated
conflicting rulings from the different Appellate Division Departments, and which
gives rise to potential federal constitutional rights violations is - can the Petitioner
be held in contempt of court for nonpayment of arrears that accrued after he filed
a downward modification motion while that motion is still pending? This
question was preserved in Petitioner’s “Appellant’s Brief’ submitted to the
Appellate Division on 7/23/2019. The Appellate Division’s response and
decision was: “There is no statutory requirement that a motion for a downward

t

modification be decided before a previously filed motion for contempt can be
decided.” (Appendix A)
First of all, the Appellate Division seems to be answering the question of
whether or not there is a requirement to decide a downward modification motion
before a previously filed motion for contempt. Except that the contempt motion
wasn’t filed until a year and a half after the downward modification was filed.
Petitioner filed his downward modification motion in Feb 2017 (Appendix AA
pA37-44); Respondent didn’t file her contempt motion until September 2018
(Appendix AA pA8-10)
Secondly, the Appellate Division First Department has indicated that there
is no statutory requirement that a downward modification motion be decided
before a contempt motion. The Second Department, however, has been clear on
this topic. In Boritzer v. Boritzer, 137 A.D.2d 478 (2d Dep’t 1988):
“since he asserted as a defense that he was financially unable to comply
with the pendente lite orders, he was entitled to a hearing (see, Domestic
Relations Law § 246). Therefore, the Supreme Court erred in not holding a
hearing before it adjudged him to be in contempt.” And also, “Since this issue
[downward modification] is inextricably involved with the issue of contempt,
both issues should be determined after a full evidentiary hearing.”

1

It seems clear that the issues of downward modification and contempt are
inextricably linked, and the Second Department has been clear that both issues
should be determined after a full evidentiary hearing.
Here is the dilemma - the Trial Court did hold a contempt hearing in
Petitioner’s case, which lasted half of one afternoon court session and entailed a
cursory review of finances. Contrast that with the ongoing financial trial,
including the downward modification motion. Petitioner’s case has been ongoing
since 2013, and the financial aspects of the divorce are intricate and significant.
The Trial Court signed an order of reference on 4/6/2017 (Appendix AA pA45)
assigning a Special Referee to begin a financial trial to determine child support,
arrears, motion sequence #13 (downward modification), and other financial
aspects of the case. The trial in front of the Special Referee began on 6/27/2017,
and spanned eleven full days of testimony , and generated thousands of pages of
transcripts. To be clear, none of the was in front of the Trial Court Judge, it was
only in front of the Special Referee. On 10/23/2018 there was a contempt hearing
in front of the Trial Court Judge, and Petitioner was found in contempt, even
though the financial trial wasn’t yet completed, and motion sequence #13 was still
pending. We know for sure that motion sequence #13 was still pending because
on 1/10/2019 (after Petitioner had served his jail sentence and was released) the
Trial Court wrote another referral order to the Special Referee, again directing the

to

financial trial to continue, including motion sequence #13 regarding recalculation
of child support (Appendix AA, pA46). The financial trial, including the
downward modification motion continues to this day.
Although the Trial Court DID hold a contempt hearing on 10/23/2018, the
full evidentiary hearing on the downward modification of child support was NOT
held, and still has not been held. The transcript from this trial clearly shows that
the Court was reminded of the fact that there was still a pending downward
modification during the contempt hearing.
Are these two issues - contempt and downward modification, two distinct
issues? Boritzer v. Boritzer makes it clear that they are.
In its decision on the contempt trial, the Trial Court said the Petitioner “is
bound by the terms contained in the pendente lite support order.” Petitioner agrees
that the Court has authority to award temporary support via a pendente lite order,
and that he is otherwise bound to that. Petitioner argues, however, that if the
pendente lite award puts too much financial strain on him, then he has the right to
move the court for a downward modification, and for that motion to be heard. It’s
preposterous that it will soon be FOUR years since the downward modification
motion was filed and yet it still has not been heard. Case law rulings are clear, that
downward modification motions need to be heard prior to a finding of contempt for
arrears. What is the alternative? Petitioner continues to not have his downward

modification considered, and is burdened with a support payment he can’t afford,
so he gets held in contempt over and over and over for many more years until the
court eventually hears the downward modification motion?
For argument’s sake, let’s say Petitioner was able to pay the current arrears
adjudged against him to avoid contempt? Then sometime later, the downward
modification is heard and granted, and it’s determined that there were no arrears.
Would the money that was paid to Respondent have to be refunded back to
Petitioner? And what if Respondent weren’t able to refund that amount? Such a
scenario would be judicially unwieldy, and thus courts have attempted to avoid
these types of situations. See Singer v. Singer, 180 A.D.2d 725, 726 (2d Dep’t
1992), finding that the trial court “erred in including in the judgment, those
arrears that accumulated after the husband cross-moved for a downward
modification.”
Rest assured, Petitioner would like to have his downward modification
hearing done. It’s not his fault that the courts have not been able to hear this motion
over the past four years. Yet it’s a travesty that he has been incarcerated as a result
of being assigned a support amount that is now beyond his means, and although he
moved the courts to try and avail himself of the proper legal tools to remedy his
situation - the court hasn’t heard his case for nearly four years. If on one hand the

1^

court won’t hear his downward modification motion, then on the other hand they
shouldn’t hear the contempt motion against him.
The Second Department has addressed the issue of a timely financial trial in
Colley v. Colley, 200 A.D.2d 839, 839. Simply stated, ’’the most appropriate
remedy for any claimed inequity in a temporary award is a speedy trial.”

Reasons for Granting the Petition
There is a conflict in the law on these issues, between case law from the
Second Department, and how the First Department has ruled. The Second
Department has ruled that issues of downward modification and contempt are
inextricably linked, and both need to be determined together {see Boritzer v.
Boritzer). The First Department, however, has allowed a contempt rulings to be
made even while a downward modification is pending and has not been heard.
Also, the Second Department found that a trial court should not include in a
judgement for arrears, any amount that accrued after a party moved for a
downward modification, until the conclusion of the hearing on the downward
modification {see Singer v. Singer). Yet, the First Department has allowed arrears
to be included in a judgement even after the party moved for downward
modification, while that motion has not been heard.

13

The First Department clearly recognizes that contempt and downward
modification are two separate and distinct issues (Appendix A - “there is no
statutory requirement that a motion for a downward modification be decided
before a previously filed motion for contempt can be decided.”)
The Second Department, in Boritzer v. Boritzer, ruled that once respondent
asserted as a defense that he needed a downward modification, then he was
entitled to a hearing on it, pursuant to DRL 246; and the Trial Court erred in not
giving him that financial trial before judging him in contempt.
This Court should give guidance so that the Appellate Division First and
Second Departments can make consistent rulings. This is not just an issue for
Petitioner, this is an issue for anyone with a child support case asking for a
modification, and having contempt be a possibility. It is, or at least should be,
untenable that in one instance, in the First Department, Petitioner could go to jail,
while given the same circumstances in the Second Department, Petitioner would
have his downward mod heard.
The goal of my petition is to have this Court reverse the Appellate Division
and give guidance that the issues of downward modifications and contempt are
inextricably linked and that contempt can’t be judged until a hearing any pending
downward modification.

Conclusion
The petition for a writ of certiorari should be granted for these reasons.

Respectfully submitted,

David Olson
4322 SW Roxbrny St
Seattle, WA 98136
(917) 865-3689

I S'

*

APPENDIX

•o

Mazzarelli, J.P., Kapnick, Gesmer, Moulton, JJ.
10442

Stephanie Olson,
Plaintiff-Respondent,

Index 350024/13

-againstDavid Olson,
Defendant-Appellant.
David Olson, appellant pro' se.
Stephanie Scherr Olson, respondent pro se.
Order, Supreme Court, New York County (Tandra L. Dawson,
J.), entered November 1, 2018, which, after a hearing, held
defendant in contempt for failure to comply with a pendente lite
child support order and committed him to the New York City
Department of Correction for 60 days or until he pays child
support arrears in the amount of $81,575, unanimously affirmed,
without costs.
In its October 25, 2016 pendente lite order, the court
imputed income to defendant and found that he was capable of
paying $3,625 per month as child support.

In the order now on

appeal, the court correctly determined that defendant's admitted
failure to pay temporary child support constituted a knowing
violation of a lawful court order, and that his conduct was
calculated to, or actually did, defeat, impair, impede, or
prejudice plaintiff's rights or remedies (Judiciary Law §
28

(

753[A][3]).
Defendant raises three issues on appeal, all of which we
reject.

First, contrary to defendant's contention, the court

held a full evidentiary hearing on plaintiff's contempt motion.
Furthermore, there is no statutory requirement that a motion for
a downward modification be decided before a previously filed
motion for contempt can be decided.
Second, defendant argues that DRL § 245 requires a showing
that less drastic remedies would be ineffective before imposing
incarceration as punishment for contempt,

However, that statute

was amended in 2016 and no longer requires such a showing (DRL §
245; see also Cassarino v Cassarino, 149 AD3d 689, 691 [2d Dept
2017]).
Third, defendant argues that the court erred in holding him
in contempt because the Judiciary Law only permits a court to
punish a party for civil contempt for non-payment of a sum the
court has ordered him-to pay "in a case where by law execution
can not be awarded for the collection of such sum . . . " (Jud L
§ 753[A][3]).

Here, however, plaintiff cannot avail herself of

any other enforcement mechanisms for three reasons,

First,

enforcement of a money judgment might result in defendant's child
support arrears being paid from marital assets, thus decreasing
their availability for distribution.
29

Second, even if the motion

court accepted defendant's claim that he earned $17 per hour
working part time at a Home Depot, income execution would be
insufficient to collect the sum of child support awarded.
Finally, plaintiff states in her brief, and defendant does not
deny, that the motion court ruled on March 19, 2018 that income
execution was unavailable.
Accordingly, the motion court properly issued, as punishment
for defendant's contempt, an order of commitment directing that
defendant remain in the custody of the New York City Department
of Corrections for the lesser of 60 days or until he pays support
arrears of $81,575 (Jud L §§ 753[A][1]; 774).
THIS CONSTITUTES THE DECISION AND ORDER
OF THE SUPREME COURT, APPELLATE DIVISION, FIRST DEPARTMENT.
ENTERED:

NOVEMBER 26, 2019

DEPUTY CLERK

30

SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF NEW YORK

STEPHANIE OLSON,
Index No. 350024/13

Plaintiff-Respondent,
NOTICE OF ENTRY
-against-

DAVID OLSON,
Defendant-Appellant
-x

PLEASE TAKE NOTICE that the attached is a true copy of a Decision and Order, dated
November 26, 2019, that was issued by the Supreme Court of the State of New York, Appellate
Division, First Department in an Appeal brought by Defendant- Appellant in the above
referenced matter. This Decision and Order was entered by the Deputy Clerk of the Supreme
Court, Appellate Division, First Department on November 26,2019.
A copy of this Notice of Entry has also been sent to Defendant-Appellant by mail.
Dated: November 27, 2019
Yours, etc.

i

StephanielOlson
108 10th Street
Garden City, NY 11530
To:

David Olson, Pro Se
4322 SW Roxbury Street
Seattle WA 98136
David.erik.olson@gmail.com

SUPREME COURT OF THE STATE OF NEW YORK

DxA

PRESENT:

PART

Ut-> •> o

rci/

Justice
INDEX NO.
MOTION DATE
- VMOTION SEQ. NO.

'O

i2- e.

MOTION CAL. NO.

were read on this motion to/for

The following papers, numbered 1 to

PAPERS NUMBERED

Notice of Motion/ Order to Show Cause — Affidavits — Exhibits ...
Answering Affidavits — Exhibits
• a

w
O

Cfl

<

Cross-Motion:

e'1
w-

Replying Affidavits__________

□ Yes

W"' o0<

□ No

111

oc

U
ui Z

Upon the foregoing papers, it is ordered that this motion

P
£
CD o

i
■? o
O U.

. h- UI

a
UI E
H

oc oc
oc
UJ o
u. u.
ui
oc
>■

3
u.
H
O

V.

UI

a.

to

AjjzajUaTV^

UI

oc

(0
UI

CO
<
O

Dated:

z
o
F
O
£

Check one:

Htxmi'mm'****
□ FINAL DISPOSITION

Check if appropriate:

□ NON-FINAL DISPOSITION

□ DO NOT POST

□ SUBMIT ORDER/ JUDG.

□ REFERENCE

□ SETTLE ORDER/JUDG.

Printed: S/30/2C

SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF NEW YORK: PART 10V
—x
STEPHANIE OLSON,
Index No. 3S00Z4/13
DECISION AND ORDER
Motion Seq #022

Plaintiff
-againstY
DAVID OLSON,

Oefen^St«^(&’1'
X^

DAWSON, J:
Before the court is the plaintiff/wife's application for a contempt finding against the
defendant/husband for failure to comply with this court's pendente lite support order wherein
he was ordered to $3625/month for the support of three children of the marriage, plus 50% of
the health and dental insurance premiums and unreimbursed expenses. The pendente lite order
was issued on October 25, 2016.1 The support figures were calculated by imputing $182,670
annual income to the husband, and $185,324 annual income to the wife. The husband's income
was based on the income he had earned when he was employed in 2013 at Citibank.
According to the wife's motion papers, the husband has failed to pay $88,825 in basic
child support since March 2016. He has unilaterally modified his child support obligation from
$3625/month to $l00/month. According to the wife, he has only paid $250 towards any medical
and dental care expenses, and he has paid nothing for child care expenses.2 The wife has been
solely supporting the children since 2016. The wife testified that the husband owes the wife
$69,513 in unreimbursed medical, dental, prescribed medication, and medical and dental
insurance premiums since March 2016.
This is the third contempt motion based on the husband's failure to pay child support. A
prior contempt application was resolved by the husband accessing marital funds to pay the wife
some of the arrears owed. The defendant continues to flout the pendente lite order. He has
engaged in self-help, by unilaterally reducing his child support obligations to a nominal amount,
claiming that his source of possible income from employment is a part-time minimum wage at
Home Depot. This is despite the facts that he has an MBA degree and has a solid work history
1 The court heard oral argument on the pendente lite motion on May 12, 2016, at which time the court issued an
interim order, pending a determination on the motion, of $3625/month.
2 Although the husband was ordered to pay 50% of the child care expenses in the body of the pendente lite
decision and order, it was not specifically ordered in the decretal paragraph, therefore the court cannot adjudge
the defendant in contempt for failure to pay such expenses.
Page 1 of 3

* A

f

a

Printed: 5/3CV20

^ £ ci Sb\/\

iLe i- Coyi^iyof"

earning upwards of $150,000 annually. The husband testified that he is employed at Home Depot
working part-time. He testified that he works part-time because he feels that he will not be able
to find a better job if he is employed full-time. The husband testified that he spends all his free
time searching for a higher paying job with no success. He claims that he pays $100/month for
rent, he pays for groceries, gas, and car insurance. He also pays to travel from Washington State
to New York, pays for airfare, lodging, meals. He admitted that he only pays $100/mpnth for his
children's support.
Defendant's opposition disregards the allegations made in support of the plaintiffs
motion to have him adjudicated in contempt of court. Defendant has failed to address
meaningfully his admitted, knowing and willful default in complying with the pendente lite
support order. He makes the preposterous argument that he cannot be held in contempt because
the issue of support is reserved for a financial trial. If that were the law, no interim support
orders would ever be enforceable.
Defendant has not been relieved of his interim child support obligations. Nor has the
pendente support order directing such payments been modified. Therefore, the defendant is
bound by the terms contained in the pendente lite support order.
The defendant has almost no housing expenses or costs as he resides with his paramour.
Therefore, he has funds available to him to pay for child support for his three children. The
defendant has failed to provide any legal explanation for his willful refusal to comply with the
pendente support order. Indeed, the defendant admits his failure to comply. He has only offered
self-serving conclusory statements that he cannot afford to pay his support order and he cannot
find employment other than a minimum wage part-time job at Home Depot.
It is well-settled that failure to pay support as ordered, shall constitute prima facie
evidence of a willful violation. Powers v Powers, 86 NY2d 63, 69 (1995); Matter of McMinn v
Taylor, 118 AD3d 887 (2d Dept. 2014); Matter of Logue v Abell, 97 AD3d 582 (2d Dept. 2012).
Upon demonstration of a failure to pay court-ordered support, "the burden of going forward
shift[s] to respondent to rebut petitioner's prima facie evidence of a willful violation." Powers v
Powers, supra at 69.
Defendant admits that he failed to comply with the pendente lite child support obligation,
and he has failed to provide this court with any iegai rationale therefore. He has only offered selfserving statements as a defense. Here, it is undisputed that the defendant is aware of the
pendente lite order. It is undisputed that he does not pay the court-ordered support amount. It
is undisputed that the defendant feeds and clothes himself, and flies cross-country for court
appearances and his parenting time. Even if his paramour, or friends are financing his lifestyle as
he has claimed, such income would be imputed to him. He has paid for two privately retained
counsel in this proceeding, he has appealed this court's decision, and paid for transcripts in
Page 2 of 3

Printed; S/30/2C

.%

connection therewith. However, he has decided that $100/month is all he is required to pay to
support his three minor children from his marriage. The defendant's conduct is the epitome of
"willful failure."
The defendant's conduct was calculated to and actually did defeat, impair and prejudice the
rights and remedies of the plaintiff Wife. Therefore, the court finds that the defendant has willfully
violated the court's pendente lite order, dated October 25,2016.
The Wife's motion for contempt is granted. The Husband did not provide a sufficient defense for
his failure to pay support pursuant to this court's order. According to the court's calculation, the base
child support obligation for entirety of the pendente lite order is $108,750. Crediting the defendant with
the amount he paid over the course of the order, $27,175, the court finds that arrears for the basic child
support obligation are $81,575 as of October 23,2018.
The court does not have sufficient documentation to adjudge the husband in contempt for his
pro rata share of the add-on medical and dental expenses and health insurance premiums. Therefore, the
amount of arrears due for medical and dental insurance and unreimbursed expenses for the children is
reserved.
Accordingly, it is hereby
ORDERED, that the defendant Husband, David Olson, is in contempt of court for failure to comply
with the court's order dated October 25,2016 which directed him to pay child support to the Wife. The
court finds that the defendant's conduct was calculated to and actually did defeat, impair and prejudice
the rights and remedies of the plaintiff Wife; and it is further
ORDERED AND ADJUDGED, that arrears are set as follows: Arrears for the basic child support
obligation are set at $81,575 as of October 23,2018; and it is further
ORDERED and ADJUDGED, that David Olson be and hereby is committed to NYC Department of
Corrections for a term of 60 days from the beginning of said confinement unless sooner discharged
according to law or until he pays the purge amount of $81,575 which is the amount of the arrears for basic
child support owed from March 30, 2016 to October 23,2018.

Dated: New York, New York
October 23,2018

ENTER:

AV .#
Tandra L Dawson, AJSC

ww TfifJDRft OftWSGfl
Page 3 of3

k /?
p4

Printed: 5/30/2C-

** *»

'b
SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF NEW YORK: IDV PART
----------X
STEPHANIE OLSON,
Plaintiff,
-against-

fa

Index No.350106/13
ORDER OF CIVIL COMMITMENT
Motion Sequence No. 022

DAVID OLSON,
Defendant.
TANDRA DAWSON, AJSC:
TO: THE NEW YORK CITY DEPARTMENT OF CORREClTONS
WHEREAS, BY ORDER OF THIS COURT DATED 10/23/18, DEFENDANT, DAVID OLSON, WAS
HELD AND ADJUDGED IN CONTEMPT OF THIS COURT FOR HIS FAILURE TO COMPLY WITH: this court's
order, dated October 25, 2015 (See, oral record of the proceedings held on 10/23/18). The husband
owes support arrears of $81,575 for basic child support. He also has not paid for medical support
add-ons for the children.
WHEREAS, the court finds that the rights of the wife have been impeded, impaired,
prejudiced and defeated by the husband's actions; and
WHEREAS, this court's order, dated 10/23/18, sentenced the plaintiff to a period of
incarceration of 60 days for his contempt of the order.
NOW, THEREFORE, upon all the prior papers and proceedings held herein, it Is
ORDERED, that the defendant David Olson, be and hereby is declared guilty of contempt of
court; and it is further
ORDERED, that you are hereby commanded forthwith to keep him committed in the custody of
the New York City Department of Corrections for a period of sixty (60) days, or until he pays $81,575
to the plaintiff, Stephanie Olson, via certified bank check or money order.
This constitutes the order of the court.
ENTER:

Dated: New York, New York
October 23,2018

Tandra L Dawson/AISC
1

HUM. TM4DHA

Printed: 5/30/2C

